September 30, 2008


TERRY J. WILSON
VICE PRESIDENT SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Management of Delivery Points – Southeast Area
         (Report Number DR-AR-08-012)

This report presents the results of our self-initiated audit of delivery point management
in the Southeast Area (Project Number 08XG002DR000). The overall objective was to
determine whether the Southeast Area effectively managed vacant and no-stat delivery
points.1 This audit addresses operational risk. Click here to go to Appendix A for
additional information about this audit.

Conclusion

Southeast Area officials did not always effectively manage delivery points address
information to eliminate vacant and no-stat2 indicators. As a result, the U.S. Postal
Service unnecessarily expended time and funds delivering mailpieces destined to
unoccupied addresses that had to be returned to the sender, the addressee, or
forwarded to a mail recovery center. Maintaining accurate and current address
information eliminates Undeliverable-As-Addressed (UAA3) mail, reducing the Postal
Service’s UAA-related cost, which is well over $1 billion annually.

Management of Delivery Points

Southeast Area officials did not always monitor delivery point status to eliminate vacant
and no-stat indicators. The Delivery Sortation Management Research Tool4 (DSMART),
identified 89,191 addresses requiring verification and update in the area. Of these, we

1
  Our original audit objective was changed to address delivery point management overall, with a focus on vacant and
no-stat updates and verifications.
2
  Vacant indicates the delivery point was active in the past, but is currently vacant (in most cases unoccupied over 90
days) and not receiving mail delivery. “No-stat” is an indicator flag at the delivery point level set in the Address
Management System (AMS) to indicate no delivery, and the address is not to be counted as a possible delivery.
3
  Mail the Postal Service cannot deliver as addressed and must forward to the addressee, return to the sender, or
send to a mail recovery center.
4
  A system developed to provide data by digit for analysis with the purpose of increasing the proficiency to delivery
point sequence (DPS) mail. The National Customer Service Center (NCSC) developed this tool to provide an
efficient means for verifying and removing the vacant or no-stat flags, restoring saturation and downstream revenue
to the Postal Service, and increasing customer confidence in AMS product accuracy.
Management of Delivery Points – Southeast Area                                 DR-AR-08-012



potentially found 24,894 addresses that still require correction. This occurred because
supervisors and managers did not provide adequate oversight of AMS technicians and
city letter carriers responsible for updating and submitting edit book sheet submissions.

As a result, the Postal Service unnecessarily expended time and funds delivering
mailpieces destined to unoccupied addresses that had to be returned to the sender, the
addressee, or forwarded to a mail recovery center. Maintaining accurate and current
address information reduces UAA mail costs.

We are making no recommendations in this report. During our review, the Southeast
Area initiated corrective action by reissuing the AMS Model Post Office Program on May
30, 2008, to establish consistent AMS reporting practices for each district office and
delivery unit. Click here to view the reissuance memorandum in Appendix C. The
actions taken should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.


     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:   Patrick R. Donahoe
      William P. Galligan
      Anthony M. Pajunas
      Jordan M. Small
      Thomas G. Day
      Alice M. VanGorder
      Carolyn Chambers
      Tammy J. Autenrieth
      Sergio A. Rodriguez
      Peggy L. Thacker
      Katherine S. Banks




                                                 2
Management of Delivery Points – Southeast Area                                                        DR-AR-08-012



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service managed approximately 148 million possible delivery points5 during
fiscal year (FY) 2007. AMS accounts for every delivery point managed by the Postal
Service. AMS accuracy is maintained from information submitted by delivery units
through the edit book process.6 Click here for a flowchart in Appendix D.

The Postal Service’s Handbook M-39, Management of Delivery Services, published in
March 1998, with updates through March 18, 2004, requires management to review edit
books several times during an accounting period and conduct annual route7 and unit
reviews consisting of an analysis of workhours, volumes, and possible deliveries.
Possible deliveries influence letter carrier operating costs.

Maintenance of vacant and no-stat information affects active delivery versus possible
delivery statistics. These statistics are used as the baseline counts for mailing
discounts and influence the workload credits8 associated with city delivery units. If
management does not maintain vacant or no-stat on city delivery routes properly, the
units will either not receive enough, or receive too much, workload credit associated
with mail delivery. As a result, a unit may overstate or understate its budgeted
workhours.

NCSC created an automated process to monitor and update vacant and no-stat city
delivery points using Change of Address information. The NCSC generates and sends
addresses via email to district and delivery unit AMS staff to monitor vacant and no-stat
points. Delivery supervisors and managers verify and update vacant and no-stat
delivery point status through discussion with carriers and AMS technicians, and enter
the updated delivery point data into the DSMART website.




5
  Possible deliveries include Active, Vacant, Seasonal, and Drop.
6
  The edit book is a product created from the current data in AMS. Every carrier route and every Post Office Box unit
has an edit book used to document additions, deletions, and changes entered into the database.
7
  To continue improving address information, headquarters introduced the Address Quality Reporting Tool that
identifies all delivery routes in a district that have the greatest opportunity for improvement.
8
  The difference between the estimated prior year and current year workload volume and delivery point forecasts.




                                                          3
Management of Delivery Points – Southeast Area                                              DR-AR-08-012



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Southeast Area effectively managed vacant
and no-stat delivery points. To accomplish our objective, we interviewed appropriate
area, district, and unit officials to obtain information on the policies and procedures for
managing delivery points. To select an area to complete this review, we obtained data
for FY 2007 from the Intelligent Mail Address Quality (IMAQ) Delivery Statistics website
and determined the area with the largest number of delivery points in each Postal
Service area. Using this information, we judgmentally selected the Southeast Area with
the second largest number of delivery points (1.3 million). We did not select the first
area because of our recent work in the Western Area.9

             Table 1 – Nationwide Possible, Active, and Inactive Deliveries

                                            Possible          Active          Inactive
                              Area          Deliveries       Deliveries      Deliveries
                    New York Metro            9,960,582        9,540,162         420,420
                    Northeast                10,252,262        9,599,550         652,712
                    Eastern                  17,594,495       16,412,532       1,181,963
                    Western                  24,035,579       22,426,655       1,608,924
                    Pacific                  16,272,862       15,787,945         484,917
                    Southwest                17,990,118       16,815,668       1,174,450
                    Southeast                21,723,388       20,400,519       1,322,869
                    Great Lakes              17,141,673       15,985,524       1,156,149
                    Capital Metro            12,841,538       12,133,039         708,499
                    TOTAL                  147,812,497       139,101,594       8,710,903
                  Source: Intelligent Mail and Address Quality - Delivery Statistics

We obtained data from the DSMART/NCSC email verification information to
judgmentally select districts and delivery units for site visits. We also visited the NCSC
to interview Postal Service officials and obtain supporting documentation used for
delivery point management. In addition, we reviewed applicable policies and
procedures with regard to managing and monitoring updates of vacant and no-stat
delivery indicators and carrier edit books.

We conducted this performance audit from October 2007 through September 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We relied on computer-

9
 Review of Growth and Delivery Point Management Program (Report No. DR-AR-07-016, dated September 29,
2007).




                                                      4
  Management of Delivery Points – Southeast Area                                                        DR-AR-08-012



  processed information from the Postal Service’s IMAQ delivery statistic website, NCSC
  reports, the SEALog10 web application, and DSMART. We did not directly audit the
  systems that generated delivery statistics and edit book management information, but
  performed a limited data integrity review to determine whether the data was reliable.
  We discussed our observations and conclusions with management officials on August
  27, 2008. Management agreed with the finding and will continue to improve delivery
  management in the Southeast Area.

  PRIOR AUDIT COVERAGE

  In 2007, the U.S. Postal Service Office of Inspector General (OIG) issued a national
  capping report summarizing a series of eight area reports on delivery point
  management that identified opportunities to improve managing delivery points.

                                                     Final Report            Monetary
       Report Title          Report Number               Date                 Impact               Report Results
Address                      DR-AR-07-012          August 29, 2007         $26,902,945        Opportunities existed
Management                                                                                    for area officials to
Information System –                                                                          implement best
National Capping                                                                              management practices
                                                                                              similar to the New York
                                                                                              District to improve
                                                                                              quality of AMS data to
                                                                                              process and deliver the
                                                                                              mail.




  10
    The SEALog web application is used by AMS offices to track the movement of edit books from the delivery unit to
  the AMS office and back. It gives AMS the ability to record the type of maintenance contained in each edit book, the
  date received, and the date that the work is completed. However, it is not linked to the web-based Electronic Edit
  Sheets.




                                                            5
Management of Delivery Points – Southeast Area                                     DR-AR-08-012



                     APPENDIX B: DELIVERY POINT MANAGEMENT

Southeast Area officials did not always monitor delivery point address information to
eliminate vacant and no-stat indicators.

Vacant and No-Stat Indicator Updates

During the period May 27 through July 24, 2008, Southeast Area district officials had
89,191 addresses requiring verification and update. According to DSMART, we
potentially found 24,894 addresses that still require correction, see Table 2 below.

                 Table 2. Southeast Area Summary of Vacant and No-Stat
                                 Vacant and      Vacant and
                                 No-Stat via      No-Stat                   Percent
                 District          Email          Updated     Unchanged    Unchanged
            Alabama                  10,351           8,084        2,741         26%
           Atlanta               13,456        9,741        4,610               34%
           Central Florida       12,228       10,168        2,363               19%
           Mississippi            3,842        2,804        1,270               33%
           North Florida          9,480        6,578        3,426               36%
           South Florida          6,398        4,893        1,708               27%
           South Georgia          6,872        5,525        1,647               24%
           Suncoast              15,468       11,358        4,901               32%
           Tennessee             11,096        8,939        2,228               20%
                 TOTAL           89,191       68,090       24,894               28%
          Source: DSMART Vacant and No-Stat Summary Reports

At the South Florida and Tennessee Districts’ delivery units visited, we found indications
of inadequate oversight from supervisors and managers when updating and submitting
the edit book activity logs. As a result, the edit books were sometimes not properly filled
out and the logs were not always complete. See Table 3.




                                                  6
Management of Delivery Points – Southeast Area                                        DR-AR-08-012




                Table 3. Delivery Units’ AMS Edit Book and Log Activity
                                                                   Did Carriers Initial AMS
                                                                   Activity Logs Indicating
           District and           Edit Book       Complete AMS       No Change to Edit
          Delivery Unit          Submissions       Activity Logs            Books?
      South Florida District
      Xxxxxxxxxx                      Yes               No                   No
      Xxxxx Xxxxx                     Yes               No                   No
      Xxxxxxx Xxxxx                   Yes               No                   No
      Xxxxxxx Xxxx                    No                Yes                  Yes
      Tennessee District
      Xxxxxxxxxxxxxx                  No                Yes                  Yes
      Xxxxxxx Xxxxxxx                 Yes               No                   No
      Xxxxxx Xxxxxx                   Yes               No                   No
      Xxxxxxxx - Xxxxxxx              Yes               No                   No
      Xxxxxxxxxxx - Xxxxxxxx          Yes               No                   No
     Source: Delivery Unit Edit Books and AMS Activity Logs


The primary reason for inadequate supervisory oversight at delivery units is that
management did not always place a high priority on the completion of AMS duties or
provide the carriers and AMS technicians with sufficient time for managing the edit book
process. Since management did not always carry out the weekly edit book process,
they were unaware of carriers who were not updating and submitting their edit books
timely to the AMS technician for forwarding to the district AMS office.

As a result, the Postal Service unnecessarily expended time and funds delivering
mailpieces destined to unoccupied addresses that had to be returned to the sender,
addressee, or forwarded to a mail recovery center. Maintaining accurate and current
address information reduces UAA mail, of which results in wasteful costs. The Postal
Service’s UAA-related costs are very significant – well over $1 billion annually – and the
goal is to cut these costs in half by 2010.

Management’s Corrective Action During the Audit

During our review, Southeast Area officials reissued guidance for the AMS Model Post
Office Program on May 30, 2008. The memorandum established consistent reporting
practices throughout each district office and delivery unit. The program provides a tool
for postmasters, managers, and supervisors to maintain accurate and current AMS
data. Additionally, postmasters, managers, and supervisors are responsible for
ensuring carriers and AMS technicians are provided sufficient time to complete AMS
work each week. Finally, the memorandum includes using current tools, strategies, and
techniques for officials such as updating DSMART delivery point information. By




                                                  7
Management of Delivery Points – Southeast Area                              DR-AR-08-012



reissuing the guidance, Southeast Area officials reemphasized to district managers the
importance of the supervisory oversight required to manage delivery points.




                                                 8
Management of Delivery Points – Southeast Area                DR-AR-08-012



                           APPENDIX C: MEMORANDUM REISSUING
                              AMS MODEL POST OFFICE PROGRAM




                                                 9
Management of Delivery Points – Southeast Area          DR-AR-08-012



     APPENDIX D: ADDRESS MANAGEMENT SYSTEM UPDATE FLOWCHART




                                             Redacted




                                                 10
